          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                       WASHINGTON, D.C. 20460
          OFFICE OF INSPECTOR GENERAL 



                                       Catalyst for Improving the Environment


Audit Report




       State of Nevada Drinking Water
       State Revolving Fund Program
       Financial Statements for Year Ended
       June 30, 2004

       Report No. 2006-1-00018


       November 29, 2005
Abbreviations

CAFR        Comprehensive Annual Financial Report
DEP         Nevada Division of Environmental Protection
EPA         U.S. Environmental Protection Agency
FASB        Financial Accounting Standards Board
GASB        Governmental Accounting Standards Board
SDWA        Safe Drinking Water Act
                       U.S. Environmental Protection Agency                                              2006-1-00018
                       Office of Inspector General                                                   November 29, 2005




                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Audit                   State of Nevada Drinking Water
We performed this audit to
                                        State Revolving Fund Program
determine:                              Financial Statements for Year Ended June 30, 2004
•   Whether the Nevada Drinking          What We Found
    Water State Revolving Fund
    Program’s (the Program)             We rendered unqualified opinions on the State of Nevada Drinking Water State
    financial statements were fairly    Revolving Fund Program’s Fiscal Year 2004 financial statements, and
    presented in all material
                                        Nevada’s compliance with applicable laws and regulations. Specifically, the
    respects;
                                        financial statements present fairly, in all material respects, the financial
•   To what extent the Program’s
                                        position of the Program. Further, in our opinion, the Program complied, in all
    internal controls over financial    material respects, with applicable program requirements. We noted no matters
    reporting could be relied upon;     involving the internal control over financial reporting and its operations that
    and
                                        we considered to be material weaknesses.
•   Whether the Program complied
    with applicable laws and
    regulations.

Background

The requirement for audited
financial statements was enacted to
help ensure that the State
Revolving Fund Programs had
management practices, systems,
and controls in place to provide
reliable information for managing
the Federally funded program.


For further information,
contact our Office of Congressional
and Public Liaison at (202) 566-2391.

To view the full report, click on the
following link:

www.epa.gov/oig/reports/2006/
20051129-2006-1-00018.pdf
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460

                                                                                   OFFICE OF
                                                                              INSPECTOR GENERAL


                                       November 29, 2005
MEMORANDUM

SUBJECT: 	 Auditor’s Report for the State of Nevada
           Drinking Water State Revolving Fund Program
           Financial Statements for Year Ended June 30, 2004
           Report No. 2006-1-00018

FROM: 	        Michael A. Rickey /s/ Michael A. Rickey
               Director for Assistance Agreement Audits

TO: 	          Wayne Nastri, Regional Administrator
               EPA Region 9
               San Francisco, CA

Attached is a copy of the subject audit we sent to the State of Nevada. The audit contains reports
on the financial statements, internal controls, and compliance requirements applicable to the
State of Nevada Drinking Water State Revolving Fund program for the year ended June 30,
2004.

We issued an unqualified opinion on the financial statements and on the compliance
requirements applicable to the State of Nevada Drinking Water State Revolving Fund program.
In addition, we did not note any matters involving the internal control system and operations that
we consider to be material weaknesses.

Since we did not have any compliance matters or costs questioned, we are closing the audit
report on issuance.

We have no objection to the release of this report to any member of the public upon request.
The report contains no confidential business or proprietary information. If you have any
questions or concerns, please contact Mr. William Dayton at (916) 498-6590 or Ms. Yeon Kim
at (617) 918-1482.


Enclosure
                                        Table of Contents 

At a Glance


Independent Auditor’s Report ...........................................................................................                   1         


             Statement of Net Assets .........................................................................................             2

             Statement of Revenues, Expenses, and Changes in Net Assets ..........................                                         3

             Statement of Cash Flows ........................................................................................              4

             Notes to Financial Statements ...............................................................................                 6



Independent Auditor’s Report on Internal Control and Compliance 

and Other Matters Based on an Audit of Financial Statements 

Performed in Accordance with Government Auditing Standards ..................................                                             14     



Supplemental Information...................................................................................................               17     


             Schedule of Set-Aside Expenses ...........................................................................                   18 



Distribution ..........................................................................................................................   19     

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460



                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



                              Independent Auditor’s Report

We have audited the accompanying financial statements of the Drinking Water State
Revolving Fund Program (the Program) as of and for the year ended June 30, 2004. These
financial statements are the responsibility of the Program’s management. Our
responsibility is to express opinions on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

As discussed in Note 1, the financial statements referred to above are intended to present
the financial position, and the changes in financial position and cash flows, where
applicable, of the Program. The accompanying financial statements are not intended to
present the financial position of the State of Nevada as of June 30, 2004, or the changes in
its financial position and cash flows, where applicable, for the year then ended, in
conformity with accounting principles generally accepted in the United States of America.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the Program, as of June 30, 2004, and the changes in
financial position and cash flows, where applicable, thereof for the year then ended, in
conformity with accounting principles generally accepted in the United States of America.


Office of Inspector General
April 8, 2005
                                  State of Nevada
                    Drinking Water State Revolving Fund Program
                              Statement of Net Assets
                                As of June 30, 2004


Assets

Current assets:
  Cash and cash equivalents                                                $8,666,447
  Loan interest receivable                                                    645,865
  Investment interest receivable                                                9,878
  Federal grants receivable                                                   605,448
  Loans receivable – current portion                                        1,213,297
            Total current assets                                           11,140,935
Loans receivable – long term portion                                       36,941,942
Unamortized cost of bond issuance                                             148,646
Equipment, net of depreciation                                                 17,194

Total Assets                                                              $48,248,717

Liabilities and Net Assets

Current liabilities:
  Accounts payable                                                          $570,220
  Accrued payroll                                                              16,434
  Accrued Interest                                                            225,146
  Arbitrage rebate payable                                                     11,800
  Current portion of bonds payable                                            590,000
             Total current liabilities                                      1,413,600
Long-term liabilities:
  Bonds payable                                                            10,857,716
             Total long-term liabilities                                   10,857,716

Total liabilities                                                          12,271,316

Net Assets:
  Invested in capital assets                                                   17,194
  Restricted for revolving loans                                           35,960,207
Total net assets                                                           35,977,401

Total Liabilities and Net Assets                                          $48,248,717




                    See accompanying notes to the financial statements.

                                            2
                                  State of Nevada 

                   Drinking Water State Revolving Fund Program 

             Statement of Revenues, Expenses, and Changes in Net Assets 

                             Year Ended June 30, 2004 




Revenues:

   Interest earned on loans                                                $1,238,789
   Federal set-aside revenues                                               2,254,462
   Interest earned on investments                                             144,935
             Total revenues                                                 3,638,186


Expenses:

   Set-asides:
      Administrative                                                          278,663
      State program management                                                835,884
      Local assistance                                                        864,581
      Technical assistance                                                    147,336
   Debt service on matching bonds                                             490,126
   Trust agent fees                                                               924
   Depreciation expense                                                         5,865
   Amortization of cost of issuance                                             9,318
   Arbitrage rebate expense                                                   (39,600)
            Total expenses                                                  2,593,097

Operating income                                                            1,045,089


Non-operating income:
  EPA capitalization grant                                                  5,206,788

Change in net assets                                                        6,251,877
Net assets, beginning of year                                              29,725,524

Net assets, end of year                                                   $35,977,401




                    See accompanying notes to the financial statements.

                                            3

                                   State of Nevada 

                    Drinking Water State Revolving Fund Program 

                               Statement of Cash Flows 

                          For the Year Ended June 30, 2004 




Cash flows from operating activities:

   Principal received on loans                                            $1,131,681
   Interest received on loans                                              1,130,066
   Interest received on investments                                          156,782
   Cash received from EPA for set-asides                                   2,808,519
   Disbursements to loan recipients                                       (7,538,945)
   Trust agent fees                                                             (924)
   Cash paid for set-aside activities                                     (2,118,145)

Net cash used by operating activities                                     (4,430,966)

Cash flows from noncapital financing activities:
  Grants from EPA for loans                                                6,049,796
  Bond proceeds                                                            3,252,493
  Bond principal redemption                                                 (305,000)
  Interest payments on bonds                                                (457,501)

Net cash provided by noncapital financing activities                       8,539,788

Net increase in cash                                                       4,108,822
Cash and cash equivalents, beginning of year                               4,557,625

Cash and cash equivalents, end of year                                    $8,666,447




                    See accompanying notes to the financial statements.

                                               4

                                   State of Nevada 

                    Drinking Water State Revolving Fund Program 

                        Statement of Cash Flows - Continued 

                          For the Year Ended June 30, 2004 




Reconciliation of Operating Income to Net Cash Used for Operating Activities

Operating income                                                              $1,045,089

Adjustments to reconcile operating income to net cash used by operating activities:
  Depreciation and amortization                                                     15,812
  Interest on bonds                                                               490,127
Change in assets and liabilities:
  (Increase) in loan interest receivable                                         (108,723)
  Decrease in investment interest receivable                                       11,847
  (Increase) in loans receivable                                              (5,319,274)
  Decrease (increase) in grants receivable                                        554,057
  Increase in accounts payable                                                         531
  Increase (decrease) in accrued payroll                                             7,158
  (Decrease) increase in construction costs payable                           (1,087,990)
  (Decrease) increase in arbitrage rebate payable                                 (39,600)
     Total adjustments                                                        (5,476,055)

Net cash used by operating activities                                        ($4,430,966)




                    See accompanying notes to the financial statements.


                                             5

                                     State of Nevada 

                      Drinking Water State Revolving Fund Program 

                              Notes to Financial Statements 


Note 1. Organization of the Fund
The Nevada Drinking Water State Revolving Fund Program (the Program) was established
in 1997 pursuant to Nevada Revised Statues 445A.200 - 445A.295 and the Federal Safe
Drinking Water Act (SDWA). The Program was established to provide assistance to
Nevada’s public water systems for projects that meet the eligibility requirements of the
SDWA. The SDWA also allows the State to “set aside” up to 31% of the annual
capitalization grants for administration of the Program (up to 4%), supplemental funding for
the State’s Public Water System Supervision program (up to 10%), for technical assistance
to small public water systems (up to 2%), and for other technical or financial assistance to
public water systems (up to 15%).
The Program is administered by the State of Nevada’s Department of Conservation and
Natural Resources, Division of Environmental Protection (DEP) through the Bureau of
Water Pollution Control (the Bureau). The Bureau has developed policies and procedures
for the loan and set-aside programs to meet the objectives of the State and Federal Acts and
to properly manage and coordinate the Program. The Bureau determines the level of funding
to be contributed to the loan fund and used for loans and the amount to be set-aside for other
eligible activities. The Bureau reviews loan applications for eligibility and subsequently
prioritizes eligible projects with those compliance-related projects addressing public health
risks receiving the highest ranking. The Bureau’s staff reviews each loan applicant to
determine its ability to repay the loan, its readiness to proceed with the project, its ability to
complete the project, and the environmental impacts of the project. A list of prioritized loan
applications is forwarded to the Board for Financing Water Projects for approval. Funding is
offered to the highest-ranking projects that are ready to proceed, until all available funds are
used.
Beginning in 1997, the Program received annual capitalization grants from the U.S.
Environmental Protection Agency (EPA). Nevada is required to provide an amount equaling
20 percent of the Federal capitalization grant as matching funds in order to receive each
grant. As of June 30, 2004, EPA had awarded $58,524,157 in capitalization grants for the
Program, and Nevada is required to provide $11,749,320 as its matching share. The state
match has been funded from proceeds of state match bonds issued on behalf of the Program
by the State Treasurer’s Office.
The Bureau has a small professional staff dedicated solely to performing services for the
Program activities. The allocated portion of salaries and benefits of employees for time
spent working on Program activities, as well as indirect costs based on direct costs, are
charged to the Program. Employees charging time to the Program are covered by the State
of Nevada Public Employee’s Benefit Plan.
The Program financial statements, footnotes, and related schedules are presented for the
EPA. The Program’s account balances and activities are included in Nevada’s
Comprehensive Annual Financial Report (CAFR) as part of the Water Projects Loan Fund, a
major enterprise fund which uses the accrual basis of accounting. Because the Program is
blended with other water pollution control programs, its assets, liabilities, equity and
activities are not identifiable in Nevada’s CAFR. Also, because of the different reporting
methods, there may be differences between the amounts reported in these financial
statements and Nevada’s CAFR.




                                                6

                                     State of Nevada 

                      Drinking Water State Revolving Fund Program 

                              Notes to Financial Statements 


Note 2. Summary of Significant Accounting Policies
Basis of Accounting
The program presents its financial statements as an enterprise fund. This method follows the
accrual method of accounting, whereby revenues are recorded as earned and expenses are
recorded when the liability is incurred. An enterprise fund is used since the Program’s
operations are similar to a financing institution where net income and capital maintenance
are appropriate determinations of accountability that provide information to the EPA in
evaluating whether the Program is operating within the requirements of the SDWA. All
assets and liabilities associated with the operations of the Program are included in the
balance sheet. Fixed assets are depreciated over the useful life of the asset, using the
straight-line method. In preparing the Program’s financial statements, Nevada follows the
accounting pronouncements of the Governmental Accounting Standards Board (GASB), as
well as statements issued by the Financial Accounting Standards Board (FASB) before
November 30, 1989, unless FASB pronouncements conflict with or contradict GASB
pronouncements.
Cash and Cash Equivalents
The Nevada State Treasurer is an elected Constitutional Officer and part of the Executive
Branch of the State Government. The Treasurer is responsible for the handling of all State’s
cash as a fiscal agent for the fund. The Treasurer manages an investment pool where all
temporary surplus cash is invested. The investment pool has the same general characteristics
as demand deposit accounts, and invested funds are considered to be cash equivalents.
Management of the Program does not have control over the investment of excess cash and
the statement of cash flows considers all funds deposited with the Treasurer to be cash and
cash equivalents, regardless of actual maturities of the underlying investments. Deposits
with the Nevada State Treasurer are accounted for on the balance sheet as cash and cash
equivalents. Investment interest earnings on these deposits are received by the Program on a
quarterly basis.
Loans Receivable
Nevada operates the Program as a direct loan program, whereby the majority of loans made
to water systems are funded by the Federal capitalization grant and from state matching
funds. Additional loans can be made from revolving funds that have been repaid to the
Program and Program earnings. The Program’s loans are evidenced by a formal loan
contract between the DEP and the borrower. Loan funds are disbursed to borrowers after
they incur costs for the purposes of the loan. Federal grant funds are distributed to the State
when the disbursement is made to the borrower.
Interest rates are based on the 20-year Bond Buyer Municipal Index for publicly-owned
water systems and on the 25-year Bond Buyer Municipal index for privately-owned systems.
Rates currently range from 3.1 to 4.0 percent. In determining the interest rate that is offered
to a loan recipient, the rate of interest as published by the Bond Buyer Municipal Index on
the Friday preceding the date that the loan contract is executed is multiplied by a set
percentage, which is currently sixty-six percent (66%).



                                                7

                                     State of Nevada 

                      Drinking Water State Revolving Fund Program 

                              Notes to Financial Statements 


Note 2. Summary of Significant Accounting Policies (continued)
Bonds Payable

The State issues state match bonds to meet its state match obligation. Bond premiums,
discounts and cost of issuance are amortized over the life of the bonds. All bonds are backed
by the full faith and credit of the State of Nevada, with the Program primarily responsible for
repayment.
Contributed Capital
In accordance with generally accepted accounting principles applicable for the reported
periods, funds received from the EPA for the capitalization of the revolving loan fund are
recorded as contributed capital rather than as fund revenue and are recognized when all
eligibility requirements have been met.
Note 3. Cash and Cash Equivalents

All monies in the Program are deposited with the Nevada State Treasurer and are considered
to be cash and cash equivalents. The Treasurer is responsible for maintaining and investing
the pooled cash balances in accordance with Nevada laws. The Treasurer is required to
maintain a mix of investments in order to allow funds to be withdrawn at any time to meet
normal operating needs. The Program’s share of the investment income is based on the
average daily balance for the period and is credited to the Program quarterly. Details of the
investments can be obtained from the State Treasurer’s Office.

All cash and investments stated at fair market value. Investments held by the State
Treasurer’s Office are not categorized because they are not evidenced by securities that exist
in physical or book entry form.
                                            Carrying                    Fair Market
                                            Amount                        Value
   Not subject to categorization:
   Consolidated Cash Pool                 $8,643,536                    $8,666,447

Note 4. Loans Receivable

The Program makes loans to qualified public water systems for projects that meet the
eligibility requirements of the SDWA. Loans have been financed by federal capitalization
grants and state match contributions. As of June 30, 2004, $32,954,590 in federal funds and
$8,214,750 in state match had been disbursed for loans. Effective interest rates on loans
vary between 3.19 and 4.03 percent. Loan maturities are 20 years. Semi-annual payments
are due January 1 and July 1, beginning six months after the project is completed, or three
years after the first loan draw is paid. The loan contract requires the public entities to issue
local bonds to secure the loan amount which the State has pledged as collateral for bonds
payable.



                                                 8

                                        State of Nevada 

                         Drinking Water State Revolving Fund Program 

                                 Notes to Financial Statements 


  Note 4. Loans Receivable (continued)
  Loans receivable as of June 30, 2004 are as follows:
                        Authorized         June 30, 2003       Amount          Principal         Outstanding
Loan Status            Loan Amounts           Balance         Disbursed         Repaid             Balance
Completed                $31,730,624         $29,848,204           -          $1,121,460         $28,726,744
In Disbursements          17,605,340           2,987,761       6,450,955           10,221          9,428,495
Total                    $49,335,964        $32,835,965       $6,450,955      $1,131,681         $38,155,239

Breakouts:
Current                                                                                           $1,213,297
Non-Current                                                                                      $36,941,942

  Loans mature at various intervals through July, 2023. The scheduled principal and interest
  payments on completely disbursed loans maturing in subsequent years are as follows:

                                      Projected           Projected        Projected Total
           Fiscal Year                Principal            Interest          Payments
                          2005       $ 1,213,297          $1,022,898          $2,236,195
                          2006         1,260,047              979,436          2,239,484
                          2007         1,305,736              933,748          2,239,484
                          2008         1,353,083              886,401          2,239,484
                          2009         1,402,148              837,336          2,239,484
                   2010 – 2014         7,811,380            3,386,039         11,197,419
                   2015 – 2019         9,326,064            1,863,282         11,189,345
                   2020 – 2023         5,065,407              335,094          5,400,501
                                     28,737,162            10,244,234         38,981,396
    Indian Hills GID 1*                  (10,418)             (11,701)           (22,119)
    Loans in Completion              28,716,744          $10,232,533        $38,959,277
    Loans in Disbursements             9,428,495
    Loan Balance at 6/30/04        $ 38,155,239


  *Indian Hills General Improvement District 1 is still in disbursement status even though the
  loan date is 8/11/00; therefore the amortization schedule has not been finalized yet. The
  payments on interest only, however, started on 7/1/01, and principal repayments started in
  FY 04. Thus both principal and interest that are due in FY 2005 have been added to the
  2005 projected amounts, and subtracted later to arrive at the correct amount of the loans in
  completion.




                                                 9

                                     State of Nevada 

                      Drinking Water State Revolving Fund Program 

                              Notes to Financial Statements 



Note 4. Loans Receivable (continued)

As of June 30, 2004, the Program made three loans to two communities that exceeded
$5,000,000. These three loans represent 65.17% of the total loans receivable of
$38,155,239.

                                                                                   Percentage
                                                  Loan              Loan            of Total
              Community                        Authorized        Outstanding       Outstanding
   Southern Nevada Water Authority 1           $12,269,695       $10,463,759           27.42%
   Southern Nevada Water Authority 2            10,000,000         9,091,761           23.83%
   City of Henderson                              5,500000         5,309,149           13.92%
                  Total                        $27,769,695       $24,864,669           65.17%

Note 5. State Match Bonds Payable

The State issues bonds to provide the required matching funds. As of June 30, 2004, Nevada
had deposited matching funds from the net proceeds of these bonds totaling $11,805,705.
The bonds are general obligations of the State to which the full faith and credit of the State is
pledged. The State expects that the loan interest payments received from public water
systems will be in excess of the requirements necessary to service debt on the bonds.
Interest on the bonds is payable semiannually with rates ranging from 5.1% to 5.75%.
Principal is due annually through 2020 with optional early redemption, at the option of the
State, with early redemption premiums ranging from 0 to 1 percent.

As of June 30, 2004, the status of the state match deposits was as follows:
                                          June 30, 2003        FY 2004           June 30, 2004
                                             Balance          Contribution          Balance
Net Bond Proceeds                          $1,744,326         $3,252,493          $4,996,819
Amount Used on Loans in FY 04                                                      (1,405,864)
State Match Available                                                             $3,590,955




                                                10 

                                    State of Nevada 

                     Drinking Water State Revolving Fund Program 

                             Notes to Financial Statements 


Note 5. State Match Bonds Payable (continued)
Details of bonds payable as of June 30, 2004 are as follows:
                                 Beginning                         2004        Year-End
            Bonds                 Balance         2004 Issues   Retirements    Balance 

September 1, 1999, 1999B
general obligation bonds,
interest of 5.1% to 5.75%
due semi-annually,
principal due annually
through 2020.                    $5,235,000                       $205,000     $5,030,000
December 1, 2000, 2000C
general obligation bonds,
interest of 5.25% to 5.375
due semi-annually,
principal due annually
through 2018.                      1,555,000                       100,000      1,455,000
September 1, 2001, 2001C
general obligation bonds,
interest of 5.1% to 5.75 due
semi-annually, principal
due annually through 2020.         1,560,000                                    1,560,000
November 1, 2003, 2003J
general obligation bonds,
interest of 2.00% to 4.25
due semi-annually,
principal due annually
through 2019.                                      3,300,000                    3,300,000
                                  $8,350,000      $3,300,000      $305,000     11,345,000
Add: Bonds Premium                                                                102,716
Total Bonds Payable                                                           $11,447,716

Breakouts:
Current                                                                         $590,000
Long Term                                                                     $10,857,716




                                        11 

                                   State of Nevada
                     Drinking Water State Revolving Fund Program
                             Notes to Financial Statements

Note 5. State Match Bonds Payable (continued)
The Program’s debt service requirements to maturity, excluding unamortized premium, are
as follows:
        Year Ending June 30          Principal         Interest          Total
                       2005            $590,000         $568,604        $1,158,604
                       2006             600,000          583,320         1,183,320
                       2007             615,000          555,920         1,170,920
                       2008             635,000          486,979         1,121,979
                       2009             645,000          417,289         1,062,289
                2010 - 2014           3,550,000        1,621,088         5,171,088
                2015 - 2019           4,255,000          675,994         4,930,994
                       2020             455,000           13,081           468,081
               Total                $11,345,000       $4,922,275       $16,267,275

Note 6. Arbitrage Rebate

In accordance with Internal Revenue Code Section 148(f) relating to arbitrage restrictions on
tax-exempt bonds, an arbitrage rebate payable in the amount of $11,800 has been recorded
for the1999B state match bond, which is due in November of 2004. No arbitrage liability
exists on the other three bond issues.
Note 7. Set-Aside Expenses
Set-aside costs were incurred mainly for the following activities:

       a) Administrative Costs (4% Set-Aside) – Costs incurred for salaries and associated
       expenses of personnel administering the Program.

       b) State Program Management (10% Set-Aside) – Costs incurred for five different
       areas: Enhancement of the Public Water System Supervision (PWSS) including
       development of the information management system, Technical Assistance/Source
       Water Protection Education, Underground Injection Control, Implementation of
       Nevada's Capacity Development Strategy, and Operator Certification.

       c) Technical Assistance (2% Set-Aside) – Costs incurred for technical assistance for
       small public water systems that serve 10,000 or fewer persons.
       d) Local Assistance (15% Set-Aside) - Costs incurred for providing fund to public
       water systems to provide technical or financial assistance under the capacity
       development strategy, and to enhance the Wellhead Protection Program and Source
       Water Assessment Program.




                                               12 

                                         State of Nevada
                         Drinking Water State Revolving Fund Program
                                 Notes to Financial Statements

    Note 8. Contributed Capital

    The Program is capitalized by the EPA grants authorized by SDWA and matching funds 

    provided by state match bonds. All EPA funds drawn for loans are recorded as contributed 

    capital from EPA. All EPA funds drawn for set-asides are recorded as revenue. As of June 

    30, 2004, EPA had awarded to Nevada $45,604,904 in capitalization grants for loans of 

    which $32,954,590 had been drawn and recorded as contributed capital. An additional 

    $8,868,338 has been drawn for set-aside expenses since inception of the Program and 

    recorded as revenue. 


    The following summarizes the federal capitalization grants:
                                  Cumulative                           Cumulative         Fund Available
 Year of         Grant            Draws As of            2004          Draws As of             As of
Allotment       Amount           June 30, 2003          Draws         June 30, 2004        June 30, 2004
  1998        $12,558,800          $12,062,082          $377,970       $12,440,052               $118,748
  1999         14,585,100           14,584,470               630        14,585,100                -
  2001          7,757,000            6,318,060         1,438,940          7,757,000               -
  2002         15,841,600                -             7,040,776          7,040,776             8,800,824
  2003          8,004,100                -                 -                  -                 8,004,100
Total         $58,746,600          $32,964,612        $8,858,316       $41,822,928           $16,923,672

Breakouts:
Set-Asides    $13,141,696           $6,059,818        $2,808,520         $8,868,338           $4,273,358
Loans         $45,604,904          $26,904,794        $6,049,796        $32,954,590          $12,650,314

    Note 9. Contingencies, Subsequent Events and Other Matters

    Contingencies
    The Program is exposed to various risks of loss related to torts; thefts of, damage to or 

    destruction of assets; errors or omissions; injuries to state employees while performing the 

    Program business; or acts of God. Nevada is self-insured against certain property and 

    liability claims up to $1 000,000 and carries excess liability insurance for any claim in

    excess of $1,000,000. There have not been any claims against the Program since its 

    inception. 


    Related Parties
    There are no related party transactions with or related to amounts receivable from
    management of the Program.

    Subsequent Events
    In July 2004, the Board for Water Financing Projects committed additional loan funds of
    8,000,000 for two projects.


                                                   13 

Independent Auditor’s Report on Internal Control and Compliance
   and Other Matters Based on an Audit of Financial Statements
  Performed in Accordance with Government Auditing Standards




                               14 

                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460



                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




Mr. Jon Palm, Chief, Bureau of Water Pollution Control
Nevada Division of Environmental Protection

We have audited the financial statements of the Nevada Drinking Water State Revolving Fund
Program (the Program) as of and for the year ended June 30, 2004, and have issued our report
thereon dated April 8, 2005. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States.

Internal Control over Financial Reporting

In planning and performing out audit, we considered the Nevada Division of Environmental
Protection’s internal control over financial reporting in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements and not to
provide an opinion on the internal control over financial reporting. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the
internal control that might be material weaknesses. A material weakness is a reportable
condition in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by error or fraud in
amounts that would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing
their assigned functions. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Program’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. This included
tests of specific program requirements governing allowability for specific activities, allowable
costs, cash management, State matching, period of availability of funds and binding
commitments, program income, reporting, and subrecipient monitoring that are applicable to
the Program for the year ended June 30, 2004. The management of the Program is responsible
for the Program’s compliance with those requirements. Our responsibility is to express an
opinion on those requirements based on our audit.

                                                  15 

An audit includes examining, on a test basis, evidence about the Program’s compliance with
those requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Program complied, in all material respects, with the specific program
requirements that are applicable to the Program for the year ended June 30, 2004.

State Response: The State of Nevada did not have any comments.

This report is intended solely for the information and use of management of the Program and
the EPA, and is not intended to be and should not be used by anyone other than these specified
parties.



Office of Inspector General
April 8, 2005




                                                 16 

Supplemental Information




             17 

                                       State of Nevada

                         Drinking Water State Revolving Fund Program 

                                Schedule of Set-Aside Expenses 

                                  Year Ended June 30, 2004 




                                       State
                                      Program          Technical      Local
Cost Category       Administration   Management        Assistance   Assistance       Total

Salaries/Benefits        $178,802          $3,167              -          $53,009     $234,978
Indirect Costs             46,153               -              -           13,062       59,215
Operating                  29,103           1,630              -            2,625       33,358
Equipment                       -           1,670              -                -        1,670
Contract                   20,539         828,499       $147,336          795,732    1,792,106
Travel                      4,066             919                             153        5,138

Total                    $278,663        $835,885       $147,336         $864,581   $2,126,465




                                                18 

                                         Distribution



EPA Region 9

               Regional Administrator      

               Director, Water Division      

               State Revolving Fund Coordinator 

               Audit Followup Coordinator         



EPA Headquarters

               Director, Grants Administration Division
               Director, Financial Management Division
               Director, Office of Grants and Debarment
               Agency Followup Coordinator
               State Revolving Fund Audit Manager
               State Revolving Fund Branch, Office of Water


State of Nevada

               Division of Environmental Protection, Nevada Department of Conservation
                 and Natural Resources




                                                  19 

